No.
In the Supreme Court of the United States
STEVEN COOPER
Petitioner,
v.
BAY COUNTY FLORIDA
BAY COUNTY SHERIFF'S OFFICE
DEPUTY NICHOLAS MACIAS
CODE ENFORCEMENT OFFICER KATHI ASHMAN
SHARON M. WOOSLEY
Respondents,
On Petition for a Writ of Certiorari to the
Florida First District Court of Appeals
CERTIFICATE OF SERVICE
The petitioner, Steven Cooper, pro se, certifies that on October 18, 2020, a
copy of the Petition for Writ of Certiorari and a copy of the Motion for Leave to
Proceed In Forma Pauperis in the above-entitled case, and a copy of this Certificate,
were mailed first-class, postage prepaid, to: Bay County Attorney Office; and to Bay
County Sheriffs Office General Counsel. I further certify all parties required to be
served have been served.

/s/Steven Cooper, Pro Se
PO Box 18617
Panama City Beach, FL 32417
AdversePossessionIsNotACrime@gmail.com
850-312-5243

